OIG Investigative Reports, Cleveland, OH., June 27, 2012 - Cleveland Man Indicted Related to Mortgage and Student Aid Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
NORTHERN DISTRCIT OF OHIO
NEWS
FOR IMMEDIATE RELEASE
June 27, 2012
Cleveland Man Indicted Related to Mortgage and Student Aid Fraud
An eight-count indictment was filed against Paul R. Tomko, a former paid cooperator for a federal law enforcement agency, said Steven M. Dettelbach, United States Attorney for the Northern District of Ohio.
Tomko, age 39, of Cleveland, Ohio, was charged with one count of conspiracy to commit wire fraud and two counts of wire fraud in connection with a mortgage fraud scheme, one count of student aid fraud and four counts of making false statements to the Probation Department for the United States District Court for the Northern District of Ohio.
Tomko pleaded guilty in 2009 to charges related to a mortgage fraud scheme and was sentenced to three years probation in the United States District Court for the Northern District of Ohio, in Case No.1:09CR29, according to the indictment.
The indictment charges that thereafter, Tomko made false statements to the Probation Department during the course of the preparation of his Pre-Sentence Report (PSR), a report containing personal, financial, and other information designed to assist the court in sentencing. He also made false statements to the Probation Department after he was sentenced.
In 2007, Tomko had signed a paid cooperation agreement with a federal law enforcement agency wherein Tomko was to take full responsibility and make full disclosure of his own mortgage fraud-related violations and assist that agency in other mortgage fraud investigations. The indictment charges that Tomko was paid approximately $19,500 in 2007 and $7,500 in 2008 by that agency under their agreement. Tomko concealed this income from the Probation Department and also falsely stated that the law enforcement agency had approved Tomko operating a mortgage business (The Mortgage House) from his residence.
In the conspiracy and wire fraud charges, it is alleged that Tomko, through his company, OKMOT ("Tomko" backwards) Real Estate Company, recruited his housekeeper to apply for fraudulent mortgage loans for four properties between 2006 through 2007. Tomko falsely inflated the income and assets of his housekeeper in order for her to qualify for these loans, according to the indictment.
Once the loans closed, Tomko fraudulently received approximately $100,000 of the proceeds by filing mechanics liens for work not performed and directing funds to himself and/or companies he owned and controlled, as well as to others not charged in this conspiracy.
The indictment further alleges that Tomko concealed income he received as a cooperator from a federal law enforcement agency, in order to fraudulently obtain student aid and grants from the United States Department of Education.
An indictment is only a charge and is not evidence of guilt. A defendant is entitled to a fair trial in which it will be the government's burden to prove guilt beyond a reasonable doubt. If convicted, the defendant's sentence will be determined by the Court after review of factors unique to this case, including the defendant's prior criminal record, if any, the defendant's role in the offense and the characteristics of the violation. In all cases, the sentence will not exceed the statutory maximum and in most cases it will be less than the maximum.
The case is being prosecuted by Assistant U.S. Attorney Christian H. Stickan, following investigation by agents of the FBI, Cleveland Office and The Office of the Inspector General for the United States Department of Education.
Top
Printable view
Last Modified: 07/03/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov